No. 21_
JOSE LEONEL BONILLA-ROMERO,
ALSO KNOWN AS JOSE TUPAPA,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h) I certify
that the foregoing Petition for a Writ of Certiorari for
contains 5487 words, including the parts of the
document that are exempted by Supreme Court Rule
33.l(d). I declare under penalty of perjury that the
foregoing is true and correct.
Executed on May 29, 2021.

/s/ Cooke Kelsey
Counsel of Record

